<html>
<title> - TERRORIST EXPLOITATION OF REFUGEE PROGRAMS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
               TERRORIST EXPLOITATION OF REFUGEE PROGRAMS

=======================================================================



                                HEARING

                               before the

                    SUBCOMMITTEE ON COUNTERTERRORISM

                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 4, 2012

                               __________

                           Serial No. 112-124

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC] [TIFF OMITTED] 

                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________




                  U.S. GOVERNMENT PRINTING OFFICE
81-133                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Cedric L. Richmond, Louisiana
Joe Walsh, Illinois                  Hansen Clarke, Michigan
Patrick Meehan, Pennsylvania         William R. Keating, Massachusetts
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Ron Barber, Arizona
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director

                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                 Patrick Meehan, Pennsylvania, Chairman
Paul C. Broun, Georgia, Vice Chair   Brian Higgins, New York
Chip Cravaack, Minnesota             Loretta Sanchez, California
Joe Walsh, Illinois                  Kathleen C. Hochul, New York
Ben Quayle, Arizona                  Janice Hahn, California
Scott Rigell, Virginia               Ron Barber, Arizona
Billy Long, Missouri                 Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                    Kevin Gundersen, Staff Director
                   Zachary Harris, Subcommittee Clerk
               Hope Goins, Minority Subcommittee Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence:
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Janice Hahn, a Representative in Congress From the 
  State of California............................................     4

                               Witnesses

Mr. Lawrence F. Bartlett, Director, Office of Refugee Admissions, 
  Bureau of Population, Refugees, and Migration, U.S. Department 
  of State:
  Oral Statement.................................................     5
  Prepared Statement.............................................     7
Ms. Barbara L. Strack, Chief, Refugee Affairs Division, United 
  States Citizenship and Immigration Services, U.S. Department of 
  Homeland Security; Accompanied by Dawn Scalici, Deputy Under 
  Secretary, Office of Intelligence and Analysis, U.S. Department 
  of Homeland Security:
  Oral Statement of Barbara L. Strack............................     8
  Prepared Statement of Barbara L. Strack........................    10
  Prepared Statement of Dawn Scalici.............................    13

                                Appendix

Questions From Chairman Patrick Meehan for Lawrence F. Bartlett..    33
Questions From Chairman Patrick Meehan for Barbara L. Strack.....    33
Questions From Chairman Patrick Meehan for Dawn Scalici..........    35


               TERRORIST EXPLOITATION OF REFUGEE PROGRAMS

                              ----------                              


                       Tuesday, December 4, 2012

             U.S. House of Representatives,
                    Committee on Homeland Security,
         Subcommittee on Counterterrorism and Intelligence,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 311, Cannon House Office Building, Hon. Patrick Meehan 
[Chairman of the subcommittee] presiding.
    Present: Representatives Meehan, Hahn, and Hochul.
    Mr. Meehan. The Committee on Homeland Security Subcommittee 
on Counterterrorism and Intelligence will come to order.
    The subcommittee is meeting today to hear testimony 
regarding the exploitation of refugee programs by terrorists. I 
would like to welcome everyone to today's hearing. I look 
forward to hearing from today's witnesses from the Department 
of Homeland Security and the State Department. I would also 
like to take this opportunity to thank them for taking the time 
to be with us here today. You are all dedicated public servants 
and we thank you for the hard work you do on a day-to-day 
basis, and I know you have provided extensive briefings to my 
staff over the last year on the various security concerns 
related to the various visa refugee programs and I greatly 
appreciate your assistance on this important issue.
    From 2004 to 2007, the bloody sectarian insurgency in Iraq 
produced substantial civilian displacement and emigration from 
the country. In response to this growing humanitarian crisis, 
Congress passed legislation which gave Iraqis who helped the 
U.S. Government or military the opportunity to receive special 
refugee status and resettlement in the United States.
    While the motivation behind creating these special 
immigrant categories were well-intentioned, the fact remains 
that in May 2011 two Iraqi nationals who were given refugee 
status and resettled in the United States were arrested and 
accused by the FBI of plotting to send weapons and money to al-
Qaeda in Iraq. One of the men arrested had openly discussed his 
prior experience as an insurgent until Iraq and the IED attacks 
he participated in against U.S. troops. The fingerprints of the 
other Iraqi refugee who was charged were traced by the FBI to a 
component of an unexploded IED that was recovered by U.S. 
forces in northern Iraq.
    In the wake of these arrests, DHS Secretary Janet 
Napolitano and others have publicly acknowledged security 
screenings have been expanded to more than 58,000 Iraqi 
refugees who have already been settled in the United States, 
and according to press reports this February, intelligence 
indicates that the threat posed by refugees with ties to al-
Qaeda is much broader than previously believed.
    FBI Director Robert Mueller stated last year during 
Congressional testimony before the House Intelligence Committee 
that he continues to be concerned with ``individuals who have 
been resettled here in the United States that have some 
association with al-Qaeda in Iraq.''
    There are also reports that immigration authorities have 
given the FBI roughly 300 names of Iraqi refugees for further 
investigation. With the emergence of al-Qaeda affiliates across 
North Africa and the Middle East, the influx of AQI fighters 
into Jordan where Jordanian intelligence officials foiled a 
large-scale terror plot in October, and into Syria where there 
were reports just yesterday of chemical weapons being moved, I 
am increasingly worried that the terrorists may try to exploit 
various refugee resettlement programs via Turkey, Jordan, or 
other countries where persons may flee to escape the bloodshed.
    It is imperative that the interagency security screening 
process for all refugees be formidable and credible. The 
purpose of this hearing is to identify any remaining gaps in 
the security screening process that need to be remedied and to 
ensure that DHS and the State Department have the necessary 
tools and resources at their disposal to be able to carry out 
the necessary security checks.
    It is concerning to me that neither of the Iraqi refugees 
arrested last year had worked for any U.S. military, 
diplomatic, or nongovernmental organization in Iraq, yet both 
received refugee status based on humanitarian reasons.
    All this being said, I am glad to hear that the interagency 
security screening and adjudication process for refugees has 
undergone and continues to undergo a number of enhancements 
since it was initiated. In particular I would like to call 
attention to the enhanced intelligence- and information-sharing 
relationships that have been developed as well as the 
biographic checks done in collaboration with the National 
Counterterrorism Center, and these are known as interagency 
checks, and I am encouraged by the security measures now 
required for all refugee applicants ages 14 to 65 regardless of 
nationality.
    Now, as we all know, the United States welcomes more 
refugees than any other country in the world and I think the 
U.S. Government policy of resettling refugees, especially those 
who risked their lives helping our soldiers and diplomats, is 
important. My goal today is to highlight these issues to ensure 
that the security gaps are closed to prevent terrorists from 
infiltrating our refugee programs. Moreover, I want to ensure 
that the lessons learned from the breakdown are applied to 
future adjudication of refugees from other high-risk nations.
    Again I want to thank our witnesses for their hard work on 
this important issue and for your being here today.
    [The statement of Mr. Meehan follows:]
                  Statement of Chairman Patrick Meehan
                            December 4, 2012
    I would like to welcome everyone to today's hearing.
    I look forward to hearing from today's witnesses from the 
Department of Homeland Security and the State Department. I would also 
like to take this opportunity to thank them for taking the time to be 
here with us today. You are all dedicated public servants and we thank 
you for the hard work you do on a day-to-day basis.
    I know you have provided extensive briefings to my staff over the 
last year on this issue and I greatly appreciate your assistance on 
this important issue.
                        the aqi arrests of 2011
    From 2004 to 2007, the insurgency in Iraq produced substantial 
civilian displacement and emigration from the country. In response to 
the growing humanitarian crisis, Congress passed legislation, which 
gave Iraqis who helped the U.S. Government or military the opportunity 
to receive special refugee status and resettlement in the United 
States.
    While the motivation behind creating these special immigrant 
categories were well-intentioned, the fact remains that in May 2011, 
two Iraqi nationals who were given refugee status and resettled in the 
United States were arrested and accused by the FBI of plotting to send 
weapons and money to al-Qaeda in Iraq (AQI).
    One of the men arrested had openly discussed his prior experience 
as an insurgent in Iraq and the IED attacks he participated against 
U.S. troops. The fingerprints of the other Iraqi refugee charged were 
traced by the FBI to a component of an unexploded IED that was 
recovered by U.S. forces in northern Iraq.
                               the threat
    In the wake of these arrests, DHS Secretary Janet Napolitano and 
others have publicly acknowledged that security checks have been 
expanded to the more than 58,000 Iraqi refugees who had already been 
settled in the United States.
    According to press reports this past February, intelligence 
indicates that the threat posed by refugees with ties to al-Qaeda is 
much broader than was previously believed.
    FBI Director Robert Mueller stated last year during Congressional 
testimony before the House Intelligence Committee that he continues to 
be concerned with ``individuals who may have been resettled here in the 
United States that have some association with al-Qaeda in Iraq.'' There 
are also reports that that immigration authorities have given the FBI 
roughly 300 names of Iraqi refugees for further investigation.
    With the recent movement of AQI fighters into Syria and reports 
just yesterday of chemical weapons being moved, I am increasingly 
worried that terrorists may try to exploit various refugee resettlement 
programs via Turkey, Jordan, or other countries where many refugees 
have fled to escape the bloodshed.
    It is imperative that the interagency security screening process 
for refugees be formidable and credible.
                            today's hearing
    The purpose of this hearing is to identify any remaining gaps in 
the security screening process that need to be remedied, and to ensure 
DHS and the State Department have the necessary tools and resources to 
ensure security.
    It is concerning that neither Hammadi nor Alwan had worked for any 
U.S. organization in Iraq, yet both received refugee status for 
humanitarian reasons.
         interagency security screening and adjudications work
    All this being said, I am glad to hear that the interagency 
security screening and adjudication processing for refugees has 
undergone a number of enhancements since it was initiated, particularly 
regarding intelligence and information sharing with the intelligence 
community.
    In particular, I would like to call attention to the biographic 
check done in collaboration with the National Counterterrorism Center, 
known as Interagency Checks. I am encouraged that this security check 
is now required for all refugee applicants ages 14 to 65, regardless of 
nationality.
                               conclusion
    As we all know, the United States welcomes more refugees than any 
other country in the world. I think the U.S. Government policy of 
resettling refugees, especially those who risked their lives helping 
our soldiers and diplomats, is important.
    My goal today is to highlight these issues to ensure that security 
gaps are closed to prevent terrorists from infiltrating our refugee 
programs. Moreover, I want to ensure that the lessons learned from this 
breakdown are applied to the future adjudication of refugees from other 
high-risk nations.
    Again, I thank the witnesses for their hard work on this important 
issue and for being here today.

    Mr. Meehan. The Chairman now recognizes the Ranking 
Minority Member of the subcommittee, the gentle lady from 
California, Ms. Hahn, for any statement that she may have.
    Ms. Hahn. Good morning. Thank you, Chairman Meehan, for 
holding this very important hearing today as well as the 
committee for allowing me to serve today in this capacity. I 
also want to thank the panel for appearing before us and 
providing valuable expert testimony on these critical issues.
    Every year the United States admits thousands of refugees 
through its United States Refugee Admissions Program, a program 
authorized by Congress to support and provide opportunity to 
those who live in fear of persecution. Since 1975, the United 
States Refugee Admissions Program has admitted over 3 million 
refugees. The United States resettles more refugees than all 
other countries combined. Resettlement in the United States 
gives refugees the opportunity to share in America's promise 
and the ability to have life, liberty, and the pursuit of their 
happiness.
    Many refugee entrepreneurs have received help from the 
United States and the community organizations that assist in 
refugee resettlement. Because of this support, there have been 
countless success stories of refugees that have come to America 
and have given remarkable contributions to this country and 
their communities. Hence, we can agree that the Refugee 
Admissions Program is beneficial and that it should be 
continued.
    However, vulnerabilities in the program have been exposed. 
In 2011, the Department of Justice issued indictments to Waad 
Ramadan Alwan and Mohanad Shareef Hammadi, two Iraqi refugees 
living in Kentucky, for plotting to provide material support to 
al-Qaeda in Iraq. Since the indictment was issued both Alwan 
and Hammadi pleaded guilty to all counts.
    The Department of Justice, specifically the investigations 
of the Joint Terrorism Task Force, should be applauded for 
their efforts in thwarting this potential terrorist activity. 
Unfortunately, the Joint Terrorism Task Force was not the first 
entity that had information on one of these convicted 
terrorists. In 2005, Alwan's fingerprint was found on a 
roadside bomb in Iraq. This information was in a Department of 
Defense database that was not checked during his background 
investigation when he applied to the Refugee Admissions 
Program. This illustrates that we still have failed to close 
the remaining information-sharing gaps that continue to persist 
since the September 11 terrorist attacks.
    I look forward to hearing today from the witnesses on how 
measures to close gaps in the refugee admission process are 
being put in place.
    In addition, separate and apart from the Refugee 
Resettlement Program, I would like to hear what measures are 
being put in place to ensure that the Special Immigrant Visa 
Program, a program for Iraqis and Afghans, is free from 
vulnerability. We want to keep the United States as a safe 
haven for both those in need and those that are here by birth 
or through the naturalization process. One way to do that is to 
ensure that our Government agencies are working together 
collectively to obtain this goal.
    Thank you. I yield back.
    Mr. Meehan. Let me thank Ranking Member Hahn for her 
opening statement, and other Members of the committee are 
reminded that opening statements may be submitted for the 
record.
    We are please to have three distinguished witnesses before 
us on this important topic. Let me introduce them from left to 
right, from my left to right.
    Mr. Lawrence Bartlett is the director of the Office of 
Refugee Admissions at the U.S. Department of State's Bureau of 
Population, Refugees, and Migration. He leads the State 
Department program abroad and in the United States that 
identifies, processes, places, and has received more than 
260,000 refugees in the United States over the last 4 years 
alone. Previously Mr. Bartlett held the State Department 
leadership positions for refugees from Afghanistan, Iraq, 
Kosovo, and Lebanon. Mr. Bartlett served as the Peace Corps' 
Country Director in Bulgaria and Jordan was a Peace Corps 
volunteer in the Yemen Arab Republic.
    Ms. Barbara Strack is the chief of the Refugee Affairs 
Division of the Department of Homeland Security's Citizenship 
and Immigration Services. Ms. Strack's responsibilities include 
managing the refugee corps' and headquarters' staff to support 
the U.S. Refugee Admissions Program by conducting overseas 
adjudications and through related policy training, quality 
assurance, anti-fraud, and National security efforts. Ms. 
Strack came to DHS with both public- and private-sector 
experience, serving in the Policy Office of the former 
Immigration and Naturalization Service and as a Senate 
committee counsel, among other positions.
    Ms. Dawn Scalici is the deputy under secretary for analysis 
in the Office of Intelligence and Analysis at the Department of 
Homeland Security. In this capacity she leads the office's 
analytic efforts with a special focus on advancing analysis and 
developing intelligence products to support the DHS leadership 
and State, local, Tribal, and private-sector partners. Prior to 
joining DHS, Ms. Scalici served as the director for production 
and strategic program at the CIA'S Office of Iraq Analysis 
where she oversaw current and strategic analysis in Iraq and 
led efforts to advance planning, analytic tradecraft, and 
community collaboration. She earlier served as the deputy 
director for mission management at the National 
Counterterrorism Center, helping oversee National intelligence 
related to the counterterrorism mission. Ms. Scalici is a 29-
year veteran of the CIA.
    For all witnesses, it would be greatly appreciated if you 
would be aware that your testimony is important to us, but we 
try to work within time parameters, so I know you will be 
guided, otherwise having submitted written testimony as well. 
So I now recognize Mr. Bartlett for his testimony.

STATEMENT OF LAWRENCE F. BARTLETT, DIRECTOR, OFFICE OF REFUGEE 
ADMISSIONS, BUREAU OF POPULATION, REFUGEES, AND MIGRATION, U.S. 
                      DEPARTMENT OF STATE

    Mr. Bartlett. Thank you. Chairman Meehan and other 
distinguished Members, thank you for the opportunity to appear 
before your subcommittee and to update you on the steps we have 
taken to increase the security of the U.S. Refugee Admissions 
Program.
    Every year the United States admits tens of thousands of 
refugees as part of a humanitarian effort that reflects the 
highest values and aspirations of the American people in a 
program that is authorized by Congress and historically has 
enjoyed broad bipartisan Congressional support.
    Since 1975, the United States Refugee Admissions Program 
has welcomed over 3 million refugees to the United States. That 
is over 3 million people with a new chance at life, dignity, 
self-sufficiency, at raising a family and being part of our 
community. With the admission of each new refugee we celebrate 
the rebirth of America's promise.
    For decades American communities have opened their hearts, 
homes, and neighborhoods to refugees from around the world. Our 
responsibility is to ensure that they do so with continued 
confidence in the security of the U.S. Refugee Admissions 
Program, a responsibility that the State Department shares with 
the Department of Homeland Security.
    Specifically, the State Department's Bureau of Population, 
Refugees, and Migration, through our resettlement support 
centers, conducts preliminary overseas prescreening of refugee 
applicants for U.S. admissions, collecting pertinent biographic 
information necessary for numerous counselor, law enforcement, 
and intelligence reviews. The State Department is responsible 
for checking all refugee applicants against the Consular 
Lookout and Support System, known as CLASS, which comprises 
security information from the FBI Terrorist Screening Center 
and DHS as well as certain intelligence agencies.
    Certain refugee applications are also submitted by the 
State Department for a Security Advisory Opinion. This check 
requests that certain law enforcement and intelligence agencies 
share with the State Department any information they have on 
refugee applicants with possible terrorism linkages. Our 
partners at DHS's U.S. Citizenship and Immigration Services as 
well as DHS's Office of Intelligence and Analysis will discuss 
in their testimony the additional security and other 
counterterrorism checks that they undertake in partnership with 
the National Counterterrorism Center, the Defense Department, 
and others in the intelligence community and law enforcement 
before DHS grants refugee status and admission to a refugee 
applicant and his or her qualifying members. The State 
Department strongly supports these efforts by DHS.
    This subcommittee's request for testimony included 
questions pertaining to the Congressionally-mandated Special 
Immigrant Visa Program which facilitates the admissions of U.S. 
Government-affiliated foreign nationals, including Iraqis and 
Afghans to the United States. The SIV program, which is 
distinct from the U.S. Refugee Admissions Program, is managed 
by the State Department's Bureau of Consular Affairs. While I 
am not in a position to address SIV processing issues, I can 
tell you SIV applicants also undergo multiple extensive layers 
of security and counterterrorism review.
    Whether through the admission of the U.S. Refugee Admission 
Program or the Special Immigrant Visa Program, the State 
Department makes its first priority the safety of the American 
people, who have a right to expect that their Government will 
undertake all available efforts to safeguard their security. We 
at the Department of State are proud of the measures we have 
taken in recent years to strengthen the security of these 
programs, including through expanded intelligence community 
participation, measures which have made the country safer. In 
partnership with DHS we will continue to look for additional 
ways to enforce the safety and security of these important 
humanitarian programs. This is our obligation to the American 
people.
    Thank you for the opportunity to testify, and I look 
forward to answering your questions.
    [The statement of Mr. Bartlett follows:]
               Prepared Statement of Lawrence F. Bartlett
                            December 4, 2012
    Chairman Meehan, Ranking Member Higgins and other distinguished 
Members, thank you for the opportunity to appear before your 
subcommittee and to update you on the steps we have taken to increase 
the security of the U.S. Refugee Admissions Program.
    Every year the United States admits tens of thousands of refugees 
as part of a humanitarian effort that reflects the highest values and 
aspirations of the American people, in a program that is authorized by 
Congress and historically has enjoyed broad bipartisan Congressional 
support.
    Since 1975, the United States Refugee Admissions Program has 
welcomed over 3 million refugees to the United States. That is over 3 
million people with a new chance at life, dignity, self-sufficiency, at 
raising a family and being part of our community. With the admission of 
each new refugee, we celebrate the rebirth of America's promise.
    For decades, American communities have opened their hearts, homes, 
and neighborhoods to refugees from around the world. Our responsibility 
is to ensure that they do so with continued confidence in the security 
of the U.S. Refugee Admissions Program, a responsibility the State 
Department shares with the Department of Homeland Security (DHS).
    Specifically, the State Department's Bureau of Population, 
Refugees, and Migration, through our Resettlement Support Centers, 
conducts preliminary overseas pre-screening of refugee applicants for 
U.S. admissions, collecting pertinent biographic information necessary 
for numerous consular, law enforcement, and intelligence reviews.
    The State Department is responsible for checking all refugee 
applicants against the Consular Lookout and Support System known as 
``CLASS'', which comprises security information from the FBI Terrorist 
Screening Center and DHS as well as certain intelligence agencies.
    Certain refugee applications (based upon classified parameters) are 
also submitted by the State Department for a Security Advisory Opinion. 
This check requests that certain law enforcement and intelligence 
agencies share with the State Department any information they have on 
refugee applicants with possible terrorism linkages.
    Our partners at DHS' U.S. Citizenship and Immigration Services as 
well as DHS's Office of Intelligence and Analysis, will discuss in 
their testimony the additional security and other counterterrorism 
checks that they undertake in partnership with the National 
Counterterrorism Center, DOD, and others in the intelligence community 
and law enforcement, before DHS grants refugee status and admission to 
a refugee applicant and his or her qualifying family members. The State 
Department strongly supports these efforts by DHS/USCIS.
    This subcommittee's request for testimony included questions 
pertaining to the Congressionally-mandated Special Immigrant Visa (SIV) 
Program, which facilitates the admission of U.S. Government-affiliated 
foreign nationals, including Iraqis and Afghans, to the United States. 
The SIV Program, which is distinct from the U.S. Refugee Admissions 
Program, is managed by the State Department's Bureau of Consular 
Affairs. While I am not in a position to address SIV processing issues, 
I can tell you that SIV applicants also undergo multiple, extensive 
layers of security and counterterrorism review.
    Whether through the administration of the U.S. Refugee Admissions 
Program or the Special Immigrant Visa Program, the State Department 
makes its first priority the safety of the American people, who have a 
right to expect that their Government will undertake all available 
efforts to safeguard their security.
    We at the Department of State are proud of the measures we have 
taken in recent years to strengthen the security of these programs, 
including through expanded intelligence community participation--
measures which have made the country safer. In partnership with DHS, we 
will continue to look for additional ways to enhance the safety and 
security of these important humanitarian programs. This is our 
obligation to the American people.
    Thank you for the opportunity to testify. I look forward to 
answering your questions.

    Mr. Meehan. Thank you, Mr. Bartlett.
    Ms. Strack, the committee now recognizes you for your 
testimony.

    STATEMENT OF BARBARA L. STRACK, CHIEF, REFUGEE AFFAIRS 
 DIVISION, UNITED STATES CITIZENSHIP AND IMMIGRATION SERVICES, 
   U.S. DEPARTMENT OF HOMELAND SECURITY; ACCOMPANIED BY DAWN 
  SCALICI, DEPUTY UNDER SECRETARY, OFFICE OF INTELLIGENCE AND 
         ANALYSIS, U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Strack. Thank you, Mr. Chairman and Members of this 
subcommittee. I appreciate the opportunity to testify today 
about the U.S. Refugee Admissions Program and the Department of 
Homeland Security's efforts to deter exploitation of that 
program by terrorist groups.
    As the Chief of the Refugee Affairs Division at U.S. 
Citizenship and Immigration Services, I work in close 
partnership with other components within DHS and with 
colleagues at the Department of State's Bureau of Population, 
Refugees, and Migration. We strive to meet the program's dual 
mission of offering resettlement opportunities to eligible 
refugees while safeguarding the integrity of the program and 
our National security.
    USCIS is proud to play a part in the United States' long-
standing tradition of offering protection, freedom, and 
opportunity to refugees from around the world. An integral part 
of this mission is to ensure that refugee resettlement 
opportunities go to those who are truly eligible and who do not 
present a risk to the safety or security of the United States. 
Accordingly, we are committed to deterring and detecting fraud 
among those seeking to resettle in the United States and we 
worked hard to develop and implement the best security 
screening measurements for refugee applicants in close 
collaboration with the law enforcement, National security, and 
intelligence communities.
    I will focus this morning on the enhancements that were 
first adopted by the U.S. Refugee Admissions Program in 
connection with large-scale processing of Iraqi applicants 
beginning in 2007 and the lessons we have learned since and 
applied more broadly to other populations.
    USCIS's first tool to assure the integrity of the Refugee 
Resettlement Program is its dedicated and well-trained officer 
corps. This special cadre of USCIS officers travels around the 
world to conduct detailed in-person interviews with refugee 
applicants. They adjudicate these cases based on U.S. law, 
taking into account their knowledge of country conditions and 
their assessment of the applicant's credibility, and, when 
necessary, certain categories of cases, including certain 
National security-related cases, are referred back to 
headquarters. This provides another opportunity to conduct 
additional research and to liase with law enforcement or 
intelligence agencies before finalizing our decisions.
    In addition to in-person interviews, security checks are an 
integral part of the U.S. resettlement program. All available 
biographic and biometric information is vetted against a broad 
array of law enforcement, intelligence community, and other 
relevant databases to help confirm an applicant's identity, to 
check for any criminal or other derogatory information, and to 
identify information that could inform lines of questioning at 
the interview itself.
    While the State Department takes the lead for certain 
biographic checks, biometric checks are coordinated by USCIS 
using mobile fingerprint equipment. These fingerprints are 
screened against the FBI's vast biometric holdings and also 
screened and enrolled in DHS's biometric system, which is known 
as IDENT. Through IDENT, applicant fingerprints are screened 
not only against watch list information, but also for previous 
immigration encounters that may be relevant to their 
eligibility.
    What I have just described is the baseline of security 
checks that were conducted for all refugee applicants before 
the launch of large-scale processing of Iraqi applicants in 
2007. In order to mitigate the risk of exploitation while 
offering resettlement opportunities to thousands of Iraqi 
refugees in need of protection, many of whom had worked closely 
with the U.S. military or coalition forces, USCIS developed two 
key partnerships.
    First, we established a relationship with the Department of 
Defense to augment our biometric screening by checking against 
a DOD database known as IAFIS. IAFIS includes fingerprint 
records captured in theater in Iraq and elsewhere, so it is a 
valuable resource for us to identify a wide array of relevant 
information. For example, it includes data ranging from 
individuals who had been detained by U.S. forces to those who 
had been employed by U.S. forces, and much more.
    In addition, we reached out to DHS's Office of Intelligence 
and Analysis, which we call I&A for short, to take advantage of 
their expertise and their knowledge of the broader intelligence 
community. Working with I&A has enabled us to identify 
potential screening capabilities, to obtain critical 
intelligence information, and to enlist their services in our 
enhanced officer training. As a result, we have been able to 
enhance our refugee vetting protocols over time for both Iraqi 
applicants and for other nationalities. For example, in the 
fall of 2008 we launched a new biographic check for Iraqi 
applicants with the National Counterterrorism Center and we 
added further intelligence community support in July 2010 for 
what we now refer to as interagency checks, or IACs. We have 
expanded this vetting to other nationalities over time, and the 
IAC is now required for all refugee applicants ages 14 to 65.
    In light of the time, I will conclude my testimony, and I 
look forward to answering any questions you may have. Thanks 
for the opportunity to testify this morning.
    [The prepared statements of Ms. Strack and Ms. Scalici 
follows:]
                Prepared Statement of Barbara L. Strack
                            December 4, 2012
    Chairman Meehan, Ranking Member Higgins, and distinguished Members 
of the subcommittee, thank you for the opportunity to testify at 
today's hearing on the refugee program and the Department of Homeland 
Security's (DHS) efforts to deter exploitation by terrorist groups of 
the U.S. Refugee Admissions Program (USRAP). As the chief of the 
Refugee Affairs Division of the Refugee, Asylum, and International 
Operations (RAIO) Directorate within U.S. Citizenship and Immigration 
Services (USCIS), I work in close partnership with other components 
within DHS and with colleagues at the Department of State's Bureau of 
Population, Refugees, and Migration (PRM) to meet the USRAP's dual 
mission to offer resettlement opportunities to eligible refugees while 
safeguarding the integrity of the program and our National security.
    As you know, the United States has a proud and long-standing 
tradition of offering protection, freedom, and opportunity to refugees 
from around the world who live in fear of persecution and are often 
left to languish in deplorable conditions of temporary asylum. USCIS 
remains dedicated to fulfilling this mission, in partnership with PRM, 
and continuing the United States' leadership role in humanitarian 
protection. An integral part of this mission is to ensure that refugee 
resettlement opportunities go to those who are eligible for such 
protection and do not present a risk to the safety and security of our 
country. Accordingly, we are committed to deterring and detecting fraud 
among those seeking to resettle in the United States, and continue to 
employ the highest security measures to protect against risks to our 
National security.
    As a representative of USCIS, I can assure you that this commitment 
to our humanitarian and National security mandates is shared inside and 
outside of DHS. The refugee resettlement program has forged strong and 
deep relationships with colleagues in the law enforcement, National 
security, and intelligence communities and we continue to benefit 
enormously from their expertise, analysis, and collaboration. It simply 
would not be possible for us to support a resettlement program of the 
size and scope that the United States maintains without this critical 
interagency infrastructure.
    My testimony today will be focused on the safeguards and measures 
taken by the USRAP in connection with the Iraqi refugee resettlement 
program and lessons that we have learned since large-scale processing 
of Iraqi applicants began in 2007. In particular, I will focus on 
security-vetting protocols and information sharing. In addition, I will 
address the current refugee environment as it pertains to applicants 
from Iraq, Syria, Afghanistan, and other countries in the Middle East 
and Africa. Finally, I will provide an update on the Special Immigrant 
Visa (SIV) program, which is distinct from the refugee program, but 
operates in parallel for certain Iraqi nationals.
    DHS and other interagency partners have conducted a number of 
classified briefings for committee staff on each of these topics, and I 
would be happy to follow up with a classified briefing after today's 
hearing if needed.
                  refugee resettlement case processing
    As I mentioned above, the USRAP is a shared responsibility of the 
State Department and USCIS. The State Department is responsible for the 
overarching coordination and management of the USRAP, including the 
decision on which refugees around the world are granted access to the 
USRAP for resettlement consideration, after formal consultations with 
Congress as set forth in section 207 of the Immigration and Nationality 
Act. USCIS is responsible for conducting individual, in-person 
interviews with applicants to determine their eligibility for refugee 
status, including whether they meet the refugee definition and are 
otherwise admissible to the United States under U.S. law.
    In order to fulfill its responsibilities under the USRAP, USCIS 
created the Refugee Corps in 2005, which is a cadre of specially-
trained USCIS officers who are dedicated to adjudicating applications 
for refugee status overseas. These officers are based in Washington, 
DC, but they travel around the world to the locations where refugees 
reside. In addition, USCIS has a small number of officers posted at 
embassies overseas and assigns well-trained officers from other 
programs--such as the Asylum Corps and Office of the Chief Counsel--to 
supplement the Refugee Corps. Using this model, USCIS has been able to 
respond to an increasingly diverse refugee admissions program, working 
in 66 countries in fiscal year 2012.
    Recognizing that a well-trained cadre of officers is critical to 
protecting the integrity of the refugee process, we have focused our 
efforts on providing the highest-quality training to refugee 
adjudicators. In addition to the basic training required of all USCIS 
officers, refugee officers receive 5 weeks of specialized training that 
includes comprehensive instruction on all aspects of the job, including 
refugee law, grounds of inadmissibility, fraud detection and 
prevention, security protocols, interviewing techniques, credibility 
analysis, and country conditions research. Before deploying overseas 
officers also receive pre-departure training which focuses on the 
specific population that they will be interviewing. This includes 
information on the types of refugee claims that they are likely to 
encounter, detailed country of origin information, and updates on any 
fraud trends or security issues that have been identified. Since the 
advent of large-scale processing of Iraqi applicants in 2007, USCIS 
officers who adjudicate Iraqi refugee applications also receive 
additional 2-day training on country-specific issues, including 
briefings from outside experts from the intelligence, policy, and 
academic communities. This specialized training was one of the 
requirements instituted under former DHS Secretary Chertoff, as part of 
the enhanced security screening procedures he announced in May 2007.
    In order to fully explore refugee claims and to identify any 
possible grounds of ineligibility, specially-trained USCIS officers 
conduct an in-person, in-depth interview of every principal refugee 
applicant. The officer assesses the credibility of the applicant and 
evaluates whether the applicant's testimony is consistent with known 
country conditions. In addition, all refugee status determinations made 
by interviewing officers undergo supervisory review before a final 
decision is made. Refugee Affairs Division policy requires officers to 
submit certain categories of sensitive cases--including certain 
National security-related cases--to Refugee Affairs Division 
Headquarters to obtain concurrence prior to the issuance of a decision. 
This allows for Headquarters staff to conduct additional research, 
liaise with law enforcement or intelligence agencies, or consult with 
an outside expert before finalizing the decision.
                            security checks
    Security checks are an integral part of the USRAP for applicants of 
all nationalities, and coordinating these checks is a shared 
responsibility between the State Department and DHS. Prior to launching 
our large-scale Iraqi refugee processing in spring 2007, we worked from 
a standard suite of required security. For example, all available 
biographic and biometric information is vetted against a broad array of 
law enforcement, intelligence community, and other relevant databases 
to help confirm a refugee applicant's identity, check for any criminal 
or other derogatory information, and identify information that could 
inform lines of questioning during the interview. Biographic checks 
against the State Department's Consular Lookout and Support System 
(CLASS)--which includes watch list information--are initiated at the 
time of prescreening by the State Department's contractors. In 
addition, State requests Security Advisory Opinions (SAOs) from the law 
enforcement and intelligence communities for those cases meeting 
certain criteria. Biometric checks are coordinated by USCIS, using 
mobile fingerprint equipment and photographs at the time of the 
interview. These fingerprints are screened against the vast biometric 
holdings of the Federal Bureau of Investigation (FBI) Integrated 
Automated Fingerprint Identification System (IAFIS) and screened and 
enrolled in DHS's Automated Biometric Identification System (IDENT). 
Through IDENT, applicant fingerprints are screened not only against 
watch list information, but also for previous immigration encounters in 
the United States and overseas--including cases in which the applicant 
previously applied for a visa at a U.S. embassy.
    In order to mitigate the risk of exploitation while offering 
resettlement opportunities to thousands of Iraqi refugees in need of 
protection, USCIS has developed two key partnerships. First, we work 
with the Department of Defense (DOD) to augment our biometric screening 
by checking against the DOD Automated Biometric Identification System 
(ABIS), which contains fingerprint records captured in theatre in Iraq 
and is a valuable resource for us to identify a wide array of relevant 
information. This includes data ranging from individuals who had been 
detained by U.S. forces to those who had been employed by U.S. forces.
    In addition, we work with DHS's Office of Intelligence and Analysis 
(I&A) to identify potential screening capabilities and obtain critical 
intelligence information, as well as to enlist its services in our 
enhanced officer training.
    These two partnerships were firmly in place in January 2008 when 
Congress passed the Refugee Crisis in Iraq Act, which directed the 
State Department and DHS to establish refugee processing mechanisms 
inside Iraq, supplementing the on-going processing of Iraqi refugee 
applicants who had sought refuge in neighboring countries. Furthermore, 
with I&A's assistance, we have enhanced our refugee vetting protocols 
over time, for both Iraqi applicants and for applicants of other 
nationalities, including Afghans and Somalis. For example, in the fall 
of 2008, we launched a new biographic check with the National 
Counterterrorism Center (NCTC) for Iraqi applicants and added 
intelligence community support in July 2010 for what we now refer to as 
Interagency Checks (IAC). We have expanded this vetting protocol to 
other nationalities over time, and the IAC is now required for all 
refugee applicants ages 14-65, regardless of nationality.
    Finally, in addition to the checks that I have described, our 
vetting regime now includes pre-departure checks that are conducted 
before a refugee applicant is scheduled to travel to the United States. 
Because there can be a considerable lapse of time between the initial 
vetting and the time of travel, these checks are important to identify 
any new derogatory information that may not have been available when 
the initial security checks were conducted. The suite of pre-departure 
checks currently includes a second IAC as well as additional screening 
conducted by our DHS colleagues at U.S. Customs and Border Protection's 
National Targeting Center-Passenger, and Secure Flight screening 
conducted by the Transportation Security Administration. A refugee 
applicant cannot be approved for travel until all required security 
checks have been completed and cleared.
                    the refugee admissions pipeline
    DHS's commitment to a rigorous vetting regime for refugee 
applicants and the challenges of implementing enhancements to guard 
against National security risks had a significant impact on refugee 
admissions levels in fiscal year 2011 and fiscal year 2012. In both 
years, we fell short of the admissions ceiling authorized by the 
President, and we recognize that many eligible refugee applicants have 
considerable wait times before receiving a final decision on their 
case.
    DHS has been working closely with interagency partners to improve, 
refine, and streamline the security vetting regime for refugee 
applicants and for other immigration categories. I am pleased to report 
that refugee admission levels began to rebound in the second half of 
fiscal year 2012 as a result of these efforts. In fiscal year 2012, the 
USRAP admitted a total of 58,238 refugees. This compares favorably to 
fiscal year 2011's admission total of 56,424. We achieved this progress 
through a series of policy and operational decisions based on extensive 
interagency consultations. For example, the USRAP received critical 
policy guidance in February 2012 from the Deputies' Committee 
establishing an analytic framework for administering the IAC. In 
addition, DHS, the State Department, and other entities have cooperated 
to examine and harmonize the validity periods for various checks and to 
streamline certain steps without compromising the overall integrity of 
the program.
    We will continue these interagency efforts to improve the efficacy 
of the USRAP security screening regime, including progress toward more 
automated processes and bolstering capacity to conduct recurrent and 
continuous vetting for the refugee applicants.
       current refugee environment in the middle east and africa
    USCIS officers conduct refugee status interviews for applicants 
from more than 60 countries each year, though the vast majority of 
these applicants are currently Iraqi, Bhutanese, and Burmese nationals. 
Refugee processing operations in the Middle East are primarily focused 
on Iraqi nationals with interviews taking place in Lebanon, Turkey, 
Jordan, and Egypt as well as in-country processing of Iraqi nationals 
in Baghdad. Operations in Damascus, Syria, previously a large refugee 
processing site, have been suspended since March 2011.
    In fiscal year 2012, over 12,000 Iraqi refugees were admitted to 
the United States, and since 2007, over 71,000 Iraqi nationals have 
been resettled, many of whom have ties to the United States through 
work or family. Small numbers of Iranian and Afghani refugee applicants 
are also resettled through the USRAP--1,758 and 481 respectively for 
fiscal year 2012. In Africa, the vast majority of refugee applicants 
are Somali, Congolese, Eritrean, Sudanese, and Ethiopian nationals 
processed in Egypt, Kenya, Ethiopia, and Uganda. Applicants from Africa 
accounted for 10,608 of the refugees admitted in fiscal year 2012. In 
fiscal year 2013, we expect similar refugee processing demographics for 
these two regions with increased processing of Congolese refugee 
applicants in Rwanda.
                     special immigrant visas (sivs)
    The SIV program is separate and distinct from the refugee 
resettlement program, though certain individuals may be eligible to 
apply for both the SIV and the USRAP at the same time. Afghan and Iraqi 
SIV applicants are also subject to the same enhanced security vetting 
protocols as refugee applicants. There are three programs under which 
an individual may apply for an SIV:
    (1) The Iraqi and Afghan Translators/Interpreters Program under 
        section 1059 of the National Defense Authorization Act for 
        fiscal year 2006, which allows up to 50 principal SIVs each 
        fiscal year for Iraqi and Afghan translators or interpreters 
        who worked for the U.S. military or under Chief of Mission 
        (COM) authority;
    (2) The Iraqi Affiliates Program under section 1244 of the Refugee 
        Crisis in Iraq Act, which authorizes up to 5,000 principal SIVs 
        per year from fiscal year 2008 through fiscal year 2012 \1\ for 
        Iraqis who worked for or on behalf of the U.S. Government; and
---------------------------------------------------------------------------
    \1\ With unused numbers available in fiscal year 2013.
---------------------------------------------------------------------------
    (3) The Afghan Allies Program under section 602(b) of the Afghan 
        Allies Protection Act of 2009, which authorizes up to 1,500 
        SIVs annually from fiscal year 2009 through fiscal year 2013 
        \2\ for Afghans who worked for or on behalf of the U.S. 
        Government.
---------------------------------------------------------------------------
    \2\ With unused numbers available in fiscal year 2014.
---------------------------------------------------------------------------
    Like the refugee program, all three SIV programs are a shared 
responsibility of the State Department and USCIS. Individuals who wish 
to apply for an SIV must first obtain COM approval from the State 
Department, or in the case of the Iraqi and Afghan Translators/
Interpreters Program, the approval can come from an appropriate U.S. 
military general or flag officer. These letters certify that the 
individual has the requisite service and otherwise meets the general 
qualifications of the SIV program under which he or she is applying. 
When a COM letter is issued, the applicant may then submit it along 
with Form I-360, Petition for Amerasian, Widow(er), or Special 
Immigrant and any additional supporting evidence to the USCIS Nebraska 
Service Center (NSC), which has sole jurisdiction over the processing 
and adjudication of SIV petitions. Average processing time at NSC for 
an I-360 SIV petition is between 3 and 10 business days. During this 
time, USCIS conducts a biographic security check through DHS's TECS 
(formerly known as the Treasury Enforcement Communications System). The 
vast majority of SIV petitions are filed by individuals living outside 
the United States at the time of filing. If USCIS approves a SIV 
petition for an alien living outside the United States, USCIS forwards 
the case to the State Department's National Visa Center, which routes 
the case to the appropriate consulate overseas for interview of the 
petitioner and visa issuance. Prior to issuing the SIV, the State 
Department conducts additional biographic and biometric security 
checks--the same security vetting regime employed by the USRAP. To 
further streamline processing of SIVs, DHS and the State Department 
signed a Memorandum of Understanding in fiscal year 2012 to establish a 
process in which individuals filing an I-360 under the Iraqi Affiliates 
Program or Afghan Allies Program may submit their petitions 
electronically with USCIS. Since fiscal year 2006, USCIS has processed 
12,899 I-360 petitions filed by Iraqis and Afghans who have assisted 
the United States, and has approved 10,739 of them as of September 
2012.
    Thank you for the opportunity to testify. I would be happy to 
answer your questions.
                                 ______
                                 
                   Prepared Statement of Dawn Scalici
    Chairman Meehan, Ranking Member Higgins, distinguished Members of 
the subcommittee, thank you for the opportunity to testify today about 
the role of the intelligence community in the screening of Iraqi 
refugee applicants overseas seeking resettlement to the United States. 
As the deputy under secretary for intelligence and analysis/analysis, 
my office provides intelligence support to USCIS to help them leverage 
the full capabilities of the intelligence community (IC). We have 
worked closely with the Refugee Affairs Division to ensure all relevant 
intelligence is available and considered when screening applicants for 
refugee resettlement to the United States.
    The integrity and security of the U.S. Refugee Admissions Program 
(USRAP), as well as other available immigration avenues, is of 
paramount importance to the Department of Homeland Security. We 
recognize that terrorists or other illicit actors could seek to use the 
refugee program to gain admission to the United States. To address this 
threat, the Department has taken significant steps to enhance the 
security checks conducted on refugee applicants. DHS and other 
interagency partners have conducted a number of classified briefings 
for committee staff on each of these topics and I would be happy to 
follow up with a classified briefing after today's hearing if needed.
    When large-scale processing of Iraqi refugee applicants was 
launched in 2007, DHS recognized the potential risks involved with 
administering such a program. To that end, at USCIS's request, my 
office has worked closely with key IC partners to develop more robust 
security screening processes--first for Iraqi refugee applicants and 
then expanding these security checks to all refugee applicants age 14 
to 65. Each agency involved in this process is committed to minimizing 
the burden to the thousands of refugees who seek our protection and 
assistance while still conducting the most thorough security checks.
    As a result of our interagency efforts, the vetting regime in place 
for Iraqi refugee resettlement applicants in 2007 was strong, but not 
impervious. We have worked to strengthen existing protocols over the 
last 5 years, including facilitating collaboration among IC partners 
and USCIS to identify where additional intelligence-based screening may 
be possible and effective. The mechanisms we have designed seek to 
ensure relevant intelligence is reviewed by analysts before an 
applicant is approved for resettlement. Today, this process is a robust 
mechanism that enhances our ability to deter and detect individuals 
seeking to exploit the refugee program.
    Over the past 5 years, DHS has prevented the travel to the United 
States of a number of individuals who would have posed a threat as a 
result of the security regime we have in place. For example, we have 
identified and denied refugee resettlement to the United States to 
applicants who were:
  <bullet> Detained for several years by the U.S. military on 
        terrorism-related grounds in Iraq;
  <bullet> Involved in terrorist or insurgent attacks against U.S., 
        Iraqi, or Coalition forces;
  <bullet> Linked to fingerprints found on unexploded improvised 
        explosive devices; and
  <bullet> Fired from employment with the U.S. Government in Iraq on 
        the grounds that they were linked to terrorism.
    I&A has worked with the FBI, NCTC, and other agencies to identify 
areas where intelligence information can be used to further strengthen 
existing security vetting procedures, and worked with partner agencies 
to develop solutions. Since instituting the additional checks in the 
summer of 2010, there has been an appreciable increase in our ability 
to identify derogatory information on Iraqi refugee applicants. Indeed, 
the robust security screening employed in the refugee context--and in 
the SIV screening mechanisms, which are modeled on it--has allowed the 
Department to leverage lessons learned to strengthen our collaboration 
with law enforcement, National security, and intelligence communities.
    When we instituted the new security checks we ensured that high-
risk refugee applicants were screened, and we now require these 
additional checks of all refugee and SIV applicants aged 14-65. In 
addition, we took steps to re-examine individuals that were already 
admitted to the United States. We are providing the results of the re-
screening to the appropriate law enforcement and intelligence parties 
and while I cannot go into details in an open setting due to the 
sensitive nature of this effort, I can tell you that these 
``retroactive'' checks continue.
    Thank you for the opportunity to testify. I would be happy to 
answer your questions.

    Mr. Meehan. Thank you, Ms. Strack.
    I note for the record as well that you and Ms. Scalici 
joined together in preparing the written testimony and so your 
testimony reflects the opening statements for both of you. So I 
am grateful for your preparation for this and for your 
appearance here today, and I now will recognize myself for 
opening questions.
    Let me begin first with the recognition that we have had 
some 68,000 Iraqi refugees resettled in the country since 2007.
    What comfort can we have that there has been adequate 
screening, recognizing that many of those refugees were allowed 
into the country during a period of time where there was a 
response to matters in Iraq and less scrutiny that was given on 
the front end than may exist today?
    So what comfort, I am not in the business of asking for 
guarantees, but I would like to have you explain how it is that 
we can feel confident that we don't have a situation with 
68,000 refugees who were allowed in the country in the last 6 
years?
    Mr. Bartlett.
    Mr. Bartlett. Thank you, Mr. Chairman. If I could start and 
then I will defer to my colleagues at the Department of 
Homeland Security, but I think I would like to start by saying 
that obviously the administration's commitment to resettling 
Iraqi refugees is steadfast and conducting this program in a 
way that is responsible, responsible in a humanitarian way as 
well as in a security effort, are really our two main issues 
and our two main responsibilities.
    The refugee program and the refugee screening for Iraqis is 
no different than it is for any other nationality. We conduct a 
full battery of tests and we have since the beginning of the 
Iraqi resettlement program. Those tests have evolved over time 
as vulnerabilities I think have been discovered and as new 
intelligence has been put into databases. So we continue to 
look at that population. But, frankly, as with any population, 
we want to make sure that this is a population that is safe to 
resettle.
    Mr. Meehan. But when you say it is no different than any 
other, wouldn't there be a higher level of scrutiny of those 
that are coming from a country in which we know that there is a 
high degree of terrorist activity and al-Qaeda activity?
    Mr. Bartlett. The screening level is calibrated to some 
extent by the country of origin, but we also resettle refugees 
from Afghanistan, we resettle refugees from parts of Africa 
where there is also turmoil. So in fact what is incumbent upon 
all of us to do in the interagency and with the intelligence 
community is to look at, as you said, the specific intelligence 
that derives from those situations.
    I would defer to my colleagues.
    Mr. Meehan. Let me ask, let me just pursue this. I am going 
to ask you to go into these questions. But you are telling me 
that there is sort of a generalized approach to this, to the 
humanitarian immigration, and I can see somebody from Gambia or 
some other country, Ethiopia, where we don't--or maybe Ethiopia 
could be questionable, but we don't have the same degree of 
inherent, you know, issues. But with those in Iraq, 
Afghanistan, Jordan, Syria, Egypt, do we have some kind of a 
method in which there is a specific heightened level of 
scrutiny for those who are seeking to come into this country?
    My opening question I note related to asking for your 
response with regard to the 58,000 Iraqi refugees who are 
already here. So I am sort of giving you two questions, but I 
want you to answer about these other countries now and then get 
back to what I asked about the 58,000 Iraqi refugees.
    Mr. Bartlett. Sure. Let me do my best, but I think I am 
again going to have to defer for specificity to my Department 
of Homeland Security colleagues.
    The types of checks that are implemented for refugees are 
largely similar. I think the difference, but again my 
colleagues will expand upon this, is the types of information 
that is available to us from those very checks. So when my 
colleagues talked about using databases, fingerprint databases 
from Iraq, those definitely are just used for Iraqi refugees. 
So I think that is the discriminating factor. It is the types 
of intelligence holdings that we have and our ability to ping 
against those holdings.
    I think on the second question about what is being done for 
those people who have already arrived, again I would defer to 
my DHS colleagues, who have been much more involved in that 
issue.
    Mr. Meehan. Well, Ms. Strack and Ms. Scalici, either of you 
who wants to answer this, I guess the implication on that is 
somehow there is a level of basic intelligence that exists 
which is higher in those countries that we have concerns about 
the terrorist activity than in others, is that accurate? Be 
responsive to my questions, please.
    Ms. Strack. Thank you, Mr. Chairman. I would like to start 
briefly with a kind of operational response and then invite my 
colleague to speak more in depth on the intelligence front.
    I would say operationally what you are suggesting, that the 
program ought to have heightened scrutiny on Iraqis, is in fact 
what happened. This was a chronology, and when the United 
States Government announced large-scale resettlement of Iraqis 
in 2007, we immediately looked at what should we be doing in 
light of this particular population, which was different. It 
was a nationality we had not been resettling a great deal. We 
looked at what enhancements we could bring on board that would 
address this new population. That is when we created the 
partnership with DOD. Initially that was Iraqi-focused. Later 
when we worked with the National----
    Mr. Meehan. Was in this 2007, Ms. Strack?
    Ms. Strack. That was in 2007. Later when we identified 
additional capacity and a new partnership with the National 
Counterterrorism Center, that initially was focused on Iraqi 
applicants. But we learned by doing, and we learned that that 
heightened level of checks which was initially oriented towards 
Iraqi applicants, we expanded to applicants of all 
nationalities. So really we used the Iraqi program to raise the 
bar across the board for other nationalities.
    Mr. Meehan. There was some 20-25,000 a year for a few years 
that were coming out of Iraq, is that not right, for at least a 
2- or 3-year period? Twenty thousand a year?
    Ms. Strack. I believe the high point was 18,000.
    Mr. Meehan. Okay, that is still 18,000 a year. Did you have 
the resources and capacity to do some kind of a fairly thorough 
assessment of each of those 18,000 before they were able to be 
granted entrance?
    Ms. Strack. Yes, sir, we did. That is where I would like to 
defer to my colleague who can explain in further detail.
    Ms. Scalici. Thank you. I think it is fair to say that in 
2007 when the large-scale processing of Iraqi refugees began, 
certainly the security and vetting programs that we had in 
place at the time were strong, but they were not impervious. We 
have learned a lot since then and we have worked with 
interagency partners to strengthen the security and the vetting 
programs that we have in place.
    Now, as Ms. Strack indicated, enhanced security vetting 
procedures were initially applied to Iraqi refugees applicants, 
expanded over time to other high-risk populations, to now at 
this point as we have all acknowledged to include all refugee 
applicants regardless of their country of origin within the age 
ranges of 14 to 65.
    So we believe that the greatly enhanced security vetting, 
which allows us to draw upon all relevant intelligence and 
other data on the applicants, has greatly enhanced our ability 
to identify derogatory information on applicants for the 
refugee program.
    At the same time, we recognize the fact that a number of 
Iraqi refugees entered the country before the enhanced security 
vetting procedures were put into place by the interagency, so 
what we have done as an interagency process is to go back and 
do retroactive checks on those individuals that were earlier 
admitted to the United States and any relevant information that 
comes to light is then shared with relevant intelligence 
community or law enforcement agencies as appropriate.
    One other thing I think I would mention is while not only 
do we have analysts who are looking at all the relevant 
intelligence and data at the time that an applicant originally 
puts forward their application, we review it again before that 
applicant actually enters the United States in case any 
derogatory information has arisen in the intervening time.
    So we do believe again this interagency process, drawing on 
more intelligence and data than we ever did before, as well as 
the recurring and the retroactive checks, has greatly enhanced 
our ability to identify individuals of concern.
    Mr. Meehan. Ms. Scalici, thank you. My time has expired. I 
will follow up with some questions. But now I recognize the 
Ranking Member for whatever questions she may have. Ms. Hahn.
    Ms. Hahn. Thank you. I think for me just real simply, in my 
opening testimony I talked about the arrests of the Iraqi 
refugees and how there was information available earlier that 
might have led us to believe that they could cause some trouble 
in our country. How did we miss that initial information and 
could you speak to what are we doing? I hear vague comments 
about information sharing, but we know that is key as we move 
forward. That was one of the one lessons we learned from 9/11.
    So without divulging any classified information, how did we 
miss that information the first time around and what can you 
tell us that will give us some confidence that we really are 
able to look at all the data available out there to make 
responsible decisions as we move forward in this refugee 
program?
    Ms. Scalici. Well, for those two individuals of concern 
that we have been talking about, at the time they made their 
original application to enter the refugee program in the United 
States, both their biographic and the biometric information 
that we had available on them at the time and that were used in 
the screening processes came in clean. So we did not have any 
derogatory information on those two individuals that we used as 
part of the screening effort when they entered the United 
States. In fact, the fingerprint clearance came through as well 
from DOD, FBI, as well as DHS.
    Ms. Hahn. Even though their fingerprints were found to have 
been on a roadside bomb?
    Ms. Scalici. That is what we have learned in the aftermath. 
I would have to defer to DOD and FBI for any specific 
information on that. But, again, all of the biographic as well 
as the biometric checks that were performed at the time did 
come back clean. But since that time, as I think we have noted, 
we have actually enhanced the program and the security checks 
and we now draw upon a greater wealth of intelligence and data 
holdings on individuals seeking application to the refugee 
program, which greatly enhances our ability to identify 
derogatory compared to earlier.
    Ms. Hahn. Anyone else want to comment on that?
    So other than the recent Iraqi refugee case, have there 
been many open-source cases of foreigners admitted through the 
refugee or immigration programs who have been associated with 
terrorism and is there any public evidence that terrorist 
groups are successfully exploiting this U.S. Refugee Admissions 
Program or any other refugee program for the specific purpose 
of gaining entry into the United States and committing an act 
of terrorism?
    Ms. Scalici. In that regard, certainly we are concerned 
about the potential for terrorist groups to exploit the refugee 
program. We certainly saw that in the case of the two 
individuals arrested in Kentucky. Although a point of 
clarification in that case, we don't actually believe that 
those two individuals deliberately sought entry to the United 
States through the refugee program with a specific intent on 
carrying out an attack here. But certainly in the aftermath of 
their entry to the United States, given their continuing desire 
to support terrorist groups overseas and in particular AQI, as 
well as obviously the previous terrorist involvement that had 
come to light, they were security risks.
    When we look at on the potential in the future for 
terrorist groups to exploit the refugee program, we do have 
concerns. Hence, we have the enhanced security and vetting 
procedures that we have in place. I will tell you that we have 
intelligence-driven processes regardless of the immigration 
program that a terrorist actor may seek to use or just travel 
to the United States. We are reviewing intelligence on a 
regular basis, sharing that with interagency partners and 
developing the procedures by which we can help to identify and 
further screening individuals of concern, again regardless of 
the way in which they plan to enter the United States.
    Ms. Strack. If I may follow up with respect to your 
question about information sharing, I did want to note that we 
in many ways at USCIS, we are customers of the agencies that 
hold security and National intelligence information and it is a 
tremendously cooperative relationship. We have relationships, 
the information flows. It not only comes to us in order to help 
us make better decisions in individual refugee cases, there are 
instances where we are also able to share information back. So, 
for example, if there is a latent fingerprint that has been 
identified from an IED or some other terrorist-related purpose, 
if that applicant, if that individual appears as an applicant 
in the refugee program, we are able to associate biographic 
information with that person, a photograph with that person, a 
location with that person, and so we are able to enrich the 
watch list information in that regard.
    Also my colleagues at another division of USCIS, our fraud 
detection and National security unit, have quite an elaborate 
program with liaison with other agencies. So they have officers 
embedded at the National Counterterrorism Center, the Terrorist 
Screening Center, with Interpol, with joint terrorism task 
forces at both the National level, State, and local. So that is 
a very important program for us, to make sure that those 
agencies have the benefit of the immigration expertise embedded 
in their unit, and then they are also eyes and ears for USCIS 
to make sure that we are getting information from those kinds 
of organizations that are important to us, not just for the 
refugee program but across the whole range of immigration 
benefits that we are responsible for.
    Ms. Hahn. Are you working with our fusion centers?
    Ms. Strack. Yes, ma'am.
    Ms. Hahn. Because I know we have conflicting reports 
sometimes on the success of those, but I know the ones where I 
come from in Los Angeles have been very valuable in helping to 
provide extremely important information that I believe has 
thwarted some potential attacks in this country.
    Ms. Strack. We agree.
    Ms. Hahn. I know I am over time, but since it is just you 
and me, I was just thinking, I am a strong supporter of a 
quick, immediate, and responsible drawdown of our forces in 
Afghanistan. I am one of those that really would like to speed 
up that time line, but I think part of the responsible drawdown 
includes providing opportunities for the Afghan people.
    Are we prepared, what is your projection as we wind that 
war down to the number of Afghan refugees that may be seeking 
to come to this country? Let us know how your resources are and 
if you feel like that is going to be a major surge. Because the 
Afghan refugees have been smaller in comparison to the Iraqi 
refugees, and I just wanted to hear your projection as we go 
forward how you think that is all going to play out.
    Mr. Bartlett. Thank you. An interesting question. So on the 
Afghan front, the program that we have that parallels the Iraq 
program is the Special Immigrant Visa Program. Again, that was 
legislated by Congress for those people who have worked closely 
with our forces and with our embassy and other U.S. 
contractors. So that program is still on-going. It has frankly 
been a bit slow getting off the mark, but frankly is now 
working. Over the last year, had I think 235 visas were issued, 
a total over the time of the program, 2,117. So it is still 
fairly small but it continues.
    On the refugee side, the refugee situation in Afghanistan 
is quite a bit different than the Iraqi refugee situation. Most 
Afghan refugees for over 20 years have found shelter and 
protection in either Pakistan or Iran. In the case of Pakistan 
we have supported the international efforts to help those 
refugees that are finding asylum in Pakistan.
    Most of those refugees are not seeking resettlement. UNHCR 
has looked over the last few years to see if there are pockets 
of refugees, especially, actually both in Pakistan and Iran 
that are in need of resettlement, and we have started in fact 
to resettle some refugees from both countries. We have a very 
small program out of Iran. We are obviously not operating 
inside Iran, but are taking those people to either Romania or 
Slovakia where we can process vulnerable women and families.
    So we don't I think project a large increase in the 
resettlement program for Afghanistan, but we continue to help 
UNHCR and I think the neighboring countries that are providing 
asylum and see where individuals might need protection as 
opposed to large waves of refugees.
    Ms. Hahn. Thank you.
    Mr. Meehan. Mr. Bartlett, you identified that you have a 
two-step process. First, you want to identify those who are 
eligible for this consideration and then to assure that they 
don't present a risk. Explain to me how you identify when and 
how somebody is eligible for this process in the first place?
    Mr. Bartlett. Sure, and that is more than a one-step 
process, trying to identify people for resettlement. Frankly, 
our largest partner is U.N. High Commission for Refugees and 
they work throughout the world----
    Mr. Meehan. Is that an American-run organization or an 
international organization?
    Mr. Bartlett. This is an international organization. They 
operate in countries of refugee outflows as well as countries 
where refugees are received.
    Mr. Meehan. Am I correct to say then we have an 
international organization that is determining who should be 
emigrating to the United States of America?
    Mr. Bartlett. It would not be exactly correct. What we do 
is we work closely with UNHCR in this regard to look at 
populations that are in need of resettlement. They are located 
in camps. They are basically at the ground level. There are 
hundreds and hundreds of thousands of refugees around the world 
who don't have a hope to go home any time soon.
    Mr. Meehan. How do you distinguish between, because it is 
interesting and I noticed you identified that Afghans would 
have a place of refuge in Pakistan, so-to-speak. But we are now 
looking at Jordanians, Syrians, not as likely Egyptians at this 
point, although nobody knows what is going to happen there. How 
do you determine who may be able to find refuge within their 
region as opposed to the United States being the only source of 
refuge?
    Mr. Bartlett. Sure. I mean, this is certainly both a 
diplomatic as well as humanitarian effort. So what we expect is 
that countries will provide asylum for refugees as they seek 
it. Not all countries are able to provide long-term support. So 
that is something we will engage bilaterally with in terms of 
governments, but we will also work multilaterally through the 
United Nations and other partners to see. So, for example, 
Syria, you bring up Syrian refugees.
    Mr. Meehan. Right.
    Mr. Bartlett. Syrian refugees right now have moved into 
principally Turkey and Lebanon, but some numbers also into 
Jordan. Those countries are hosting those refugees and we are 
supporting that effort.
    Any refugee, I will say 99 percent of the refugees in this 
world, would like to go home. As great a place as the United 
States or Australia or Canada are for resettlement, their first 
preference is to go home to their families and their own 
country. So what we try to do is support the effort to help 
people, right now again in Turkey and Lebanon and Jordan, to 
remain in those places, to have protection, to have services, 
so that as the situation changes and hopefully the violence 
subsides they can return home.
    So we are not looking at resettling large numbers of Syrian 
refugees at this moment, but, again, we are looking out to see 
if there are individuals who, for example, may have protection 
concerns in Turkey or Lebanon and cannot stay there safely.
    So it is really a kind of a two-step process. In an 
emergency situation it is really about providing assistance. We 
have provided about $200 million worth of assistance to Syrian 
refugees, and allowing them an opportunity to go home as the 
situation changes. If the situation becomes protracted as it is 
did with Iraqis, countries are sometimes unable to host people 
for extended periods of time. So after 5 years, after 6 years, 
then we begin to look at who within that population might be in 
need of resettlement.
    Mr. Meehan. I interrupted you with regard to the criteria 
and eligibility. So is there specific criteria that you look at 
in making those determination as to who is eligible?
    Mr. Bartlett. There are. I mean, our program prides itself 
on the fact that we look largely at vulnerability. So we look 
at really protecting people who are vulnerable in a country of 
asylum. You know, our program provides a fairly broad range of 
services once people arrive so we are working with them to help 
anchor them in the United States and help them gain self-
sufficiency.
    But in terms of looking at criteria, again, we look at the 
vulnerability, their inability to stay in this situation of 
temporary asylum and, frankly, their inability to go home. So 
as the situation becomes protracted, and Somalia is a good 
example, we know that there will be--and the Democratic 
Republic of Congo is another, frankly--these are two 
populations that won't have an opportunity to go home soon. So 
then we will look at discrete populations within that large 
community to see who is the most vulnerable. Often women at 
risk, without a husband, a husband is missing but with 
children, have protection concerns in a camp environment or in 
an urban environment. So we will look at that population and 
work to identify those people. Sometimes people with medical 
conditions that can't be treated in a camp and makes them again 
more vulnerable, we will look at those populations. So it is 
kind of a broad array of vulnerabilities that we try to assess.
    Mr. Meehan. Ms. Strack and Ms. Scalici, could you identify 
then, we are talking about those who are eligible for 
consideration, there has been an identification of an emphasis 
on those who have participated in assisting United States 
efforts, either in the military, intelligence or otherwise 
nongovernmental organizations, and put themselves into some 
peril. What is the distinction between those who are 
humanitarian versus those who have performed to the benefit of 
our interests and are therefore being given some consideration 
because of the exposure that may result from that service?
    Ms. Strack. I would say the programs work in several ways 
to address both humanitarian concerns and those who have worked 
side-by-side, employed directly by the United States or with 
U.S.-affiliated organizations, NGOs, or media organizations. 
The SIV program that we have talked about is often conflated 
with the refugee program but is actually distinct.
    Mr. Meehan. Could you explain that for me, what SIV stands 
for? Because we have seen this before and I want to see how 
that is different from the other program.
    Ms. Strack. Yes, sir. It stands for Special Immigrant Visa 
Program. So unlike the refugee program, the fundamental focus 
of the refugee program is on whether someone has been 
persecuted, have they been persecuted in the past or they have 
a well-founded fear of persecution in the future based on a 
protected category, race, religion, nationality, political 
opinion, or membership in a particular social group.
    The SIV program traditionally, the Special Immigrant Visa, 
is really based on service with the United States, and this is 
something Mr. Bartlett is a little bit more of an expert on, 
but Congress legislated a program, special immigrant visas, to 
say that those who worked for the United States Government, and 
there are actually three subcategories within the Special 
Immigrant Visa program. Initially it was small, if you were a 
translator with the military, but it expanded beyond that to 
include embassy employees. Really for them it is the fact of 
their service with the United States that makes them eligible. 
When they come to the United States, both our agencies have 
handled it through an entirely different bureaucratic stream, 
they don't come as a refugee, they come as a lawful permanent 
resident, so when they arrive they get a green card based on 
their service.
    Now, there are some individuals who may be eligible to 
apply for both programs. They may have worked with the U.S. 
embassy or the U.S. military so they are eligible to apply for 
an SIV, but they may very well be able to articulate a refugee 
claim because of that service they have also faced persecution.
    So we work on the refugee side of the program, but 
individuals may choose which of those two avenues is better for 
them, which they think operates more quickly, depending on 
whether they are in Iraq or somewhere else.
    Mr. Meehan. That is an interesting question. Do they 
operate on a parallel track or is there some preference given 
to somebody who has served as an interpreter for our troops 
that are, you know, out in the midst of the mountains in 
Afghanistan? Do they get a preference, or is there not any 
difference?
    Ms. Strack. I can tell you that they do operate on a 
parallel track. So an individual who is eligible has the 
opportunity to file for an SIV, and, again, that would be filed 
the State Department. In the refugee program, having worked 
with the United States or a U.S.-affiliated organization is one 
of the criteria that can help you get access to the program, 
but it is not the sole criteria.
    Mr. Meehan. Okay.
    Ms. Hahn. The only thing I would like to follow up, this 
has been such a good hearing and such a serious issue, but an 
important one certainly, and again we want to make sure that we 
continue this program, these programs, ensuring the safety of 
the refugees and the safety of the Americans.
    Have you been briefed on any possible effect that 
sequestration might have on the departments and these programs?
    Mr. Bartlett. I know at the State Department we have 
certainly looked at overall sequestration effects. I note also 
that our program--our program has been adequately funded in the 
past, so I guess our expectation is that in the coming year 
that the program should be able to continue at similar levels. 
I think it would be hard to say that it would be at the same 
level. But, again, a lot of the infrastructure we have in place 
overseas as well as domestically I think will remain. So I 
think the question will be probably what happens in the longer 
term and I am not able to answer that at this point.
    Ms. Strack. USCIS is in an unusual position in that most of 
our programs, including the refugee program, are funded through 
fees, so the fees that are paid by applicants for other 
immigration benefits is what supports the refugee settlement 
program for USCIS. That being said, my understanding is that 
the interpretation of sequestration is that it most likely will 
affect not just appropriated funds but our fee funding as well, 
but because that is a complicated issue, our Budget Office at 
USCIS is in discussions with DHS headquarters on how 
sequestration will affect USCIS.
    Ms. Hahn. Thank you. We know our Republican colleagues are 
going to do the right thing and make sure that we don't go over 
the cliff. I have complete confidence.
    Mr. Meehan. As do I. I appreciate as well, there are so 
many aspects to this hearing, and I do want to follow up on a 
couple of lines of questioning.
    I opened by identifying this look into the past while at 
the same time we appreciate the continuing instability 
throughout the region as we go to the future, and both create 
challenges to our immigration process, those who have already 
gained entrance to the United States, those who we may be 
looking at in the future.
    I identified testimony from Robert Mueller which was 
publicly reported, and if it is in fact accurate it was before 
the House Intelligence Committee. He said ``Individuals who may 
have resettled here in the United States that have some 
association with al-Qaeda in Iraq.'' Then he further, the 
report indicated that there were some 300 names of Iraqi 
refugees for further investigation.
    So, Mr. Bartlett and then either of the other panelists, 
can you update this committee on the status of the rescreening 
process and explain exactly what steps were taken in the event 
that a person with a refugee status is found to have even a 
suspicion or a relationship of some sort to al-Qaeda?
    Mr. Bartlett. I can start briefly and then I will have to 
turn it over to my colleagues. But I can assure you that there 
is very close cooperation with all law enforcement agencies, in 
particular the FBI, and that the data that we hold in our 
systems is shared with them on these types of cases, and 
certainly our cooperation with Department of Homeland Security 
to further these kinds of information sharing. But I would 
really need to defer to DHS to answer that with more 
specificity.
    Ms. Scalici. Yes. In that regard, I think I mentioned a 
little bit about the retroactive checks that we have under way 
drawing upon a host of intelligence and other interagency data 
and intelligence that we have available on those individuals 
who entered the country before the enhanced security checks 
were in place. Certainly if any derogatory information comes to 
light as a result of those rechecks, that information is 
immediately shared with law enforcement agencies for 
consideration and for action as appropriate.
    I do know that there have been several cases that FBI has 
opened as a result of new information that has come to light 
for individuals already settled here in the United States. That 
said, though, I would have to defer really to DOJ for any 
specifics on the number of cases that are still open or the 
status of those cases.
    Mr. Meehan. Ms. Scalici had said that there were 58,000 
people who had come into the country during that period of 
time. Do we know where they are in the United States?
    Mr. Bartlett. I will start with that. We know where they 
arrived. So, certainly, when people enter the United States, we 
have arranged with, in fact we contract with local agencies 
around the country to receive the refugees and provide initial 
support. Largely, refugees stay in those initial places, but, 
of course, one of the great things about coming to the United 
States is that they are free to move, and some refugees do 
move.
    So I am not sure, again, what DHS has in terms of onward 
movement, but it is one of the issues in terms of trying to 
provide on-going support to people, is that they actually end 
up moving, but in small numbers.
    Mr. Meehan. I am sort-of curious about what we know about 
those 58,000 who are already here and the extent to which we 
are going back, and do we engage them or do we go back 
historically and just look at other information that we have 
from, you know, other databases about what we knew about them 
prior to their time coming here?
    Because I am struck by the fact that it was other 
intelligence sources--and maybe that is the way. That is the 
way we found the two individuals who had the past association 
who had actually been opposed to our military who gained 
entrance to the country. But we got that from intelligence. 
Otherwise, what are we doing to look at the 58,000 who are here 
to determine if there was anything in their background that 
would raise suspicion?
    Ms. Strack. If I may, I would like to note that of the 
58,000 that you reference, from the very outset of large-scale 
Iraqi processing in 2007, there was very vigorous vetting.
    Mr. Meehan. Okay.
    Ms. Strack. They were being fully vetted through biographic 
and biometric checks. The DOD fingerprint checks were part of 
the process, really from day one in 2007, as were other quite 
rigorous biographic and biometric checks. So although some of 
those individuals, a subset of that 58,000, was not subject to 
the very latest enhancement, that is what Ms. Scalici is 
talking about in terms of looking at that portion of them for 
the retroactive checks. So I do want to be clear that the 
serious, rigorous, robust vetting was in place from the very 
beginning in 2007.
    But that being said, inevitably there are going to be 
instances where information comes to light after a refugee has 
been admitted to the United States. We work very closely, 
whether it is intelligence community, whether it is law 
enforcement, or whether it is our colleagues in immigration 
enforcement, civil immigration enforcement, depending on the 
information and the circumstance, whether it is an 
investigation, whether it is criminal proceedings, as in the 
Kentucky cases, or another alternative in some instances is 
that an individual can be placed in immigration removal 
proceedings and removed from the United States. So the 
solutions will be different, I think, under different fact 
patterns.
    The other thing that I would mention is that refugees are 
obliged to come forward after 1 year and apply to adjust their 
status; that is, to apply for their green card to become a 
lawful permanent resident. Later in their immigration life 
cycle, they may apply for naturalization.
    So at those junctures, when an individual comes back to 
USCIS, those other application benefits will also trigger 
additional vetting of the applicant. So there is some 
continuous vetting built in.
    Ms. Hahn. May I follow up on what you just said?
    Mr. Meehan. Please. Absolutely. Jump in wherever----
    Ms. Hahn. Yeah. You know, this is an interesting issue, is 
tracking these refugees when they come here. I mean, you said 
they are obligated to, in a year, show up somewhere and 
reapply. Do we know if that happens? What about the ones that 
don't? Do we, you know, try to reach out to them?
    If information does come to light after they are already 
here, let's say maybe even a couple years, what is our 
mechanism to know where these refugees actually have located? 
As you said, some do move. That is the beauty of this country. 
How are we sort of keeping track of these many thousands of 
refugees that are here if they don't automatically come back 
and reapply for their green card? What do we have in place?
    For instance, what if some information does come to light 
on a particular person? How do we know where that person has 
located in this country?
    Ms. Strack. My understanding is that there is not 
systematic tracking of refugees who come into the United States 
because they have gone through vigorous vetting before they 
arrive. We do not treat them as a suspect class. However, the 
resettlement agencies that Larry mentioned, when refugees come 
into the United States there is an agency that is invited to 
welcome them and often keeps in touch with them and encourages 
them at the 1-year mark to go ahead and apply for adjustment of 
status. But we do not routinely track people.
    Of course, if someone comes to our attention through law 
enforcement or intelligence reasons after someone has been 
admitted, very often that information itself may include 
information pertaining to location.
    Ms. Hahn. Thank you. I appreciate that. You are right, we 
shouldn't be treating these people as suspects or criminals. 
But I think the issue is the information that comes to light 
after the rigorous vetting. At that point, there is a little 
bit of a vulnerability, I think, in this program. I don't know 
if there is any talk going forward of a better way to keep 
track of refugees.
    Mr. Meehan. Do we have a record of individuals who have 
been denied access? I mean, who have sought status and then by 
virtue of something in their past denied?
    Ms. Strack. We do maintain records on denied refugee 
applicants. Those records are included in DHS' biometric 
database, the IDENT system. So if that individual is 
encountered again, whether they are using the same identity or 
a different identity, because of the biometric there would be a 
link to identify----
    Mr. Meehan. ``Biometric'': Is that more than a fingerprint?
    Ms. Strack. Fingerprint and photograph. So they would be 
identified. To the other, a subsequent encounter would be 
identified that they had previously been denied as a refugee 
applicant.
    Mr. Meehan. Okay.
    Mr. Bartlett, can you explain the criteria for determining 
who gets this Security Advisory Opinion? What individuals in 
the, as you are doing the prescreening, seem to bring a higher 
level of scrutiny? Can you explain what a Security Advisory 
Opinion is or if it is not, whichever panelist, but----
    Mr. Bartlett. Allow me one conversation, Mr. Chairman.
    Mr. Meehan. Absolutely.
    Mr. Bartlett. Take a moment.
    Sorry. We did talk earlier about which information is 
classified and which is suitable for an open hearing. For the 
Security Advisory Opinion check----
    Mr. Meehan. Mr. Bartlett, please, feel comfortable, if you 
are uncomfortable with talking about any kind of an issue. You 
have been conversant with us, and I am not against the 
possibility of entertaining that kind of a question in a 
different environment. But I just believe that we at the same 
time want to create a level of comfort that we are doing things 
on both ends. If you feel comfortable about it, I would like 
you to discuss it.
    Mr. Bartlett. I appreciate that. I will start with a small 
discussion and then I will move to the comfort level of going 
perhaps to offering to brief in a classified setting.
    But at the outset, every refugee is subject to the Consular 
Lookout check, the CLASS check, and the information that might 
be in that CLASS check could point to the need to do a Security 
Advisory Opinion. So that, again, that has holdings from 
various intelligence agencies, and that would indicate a need 
to do a more rigorous examination of their background through 
the Security Advisory Opinion check.
    Security Advisory Opinion checks are also run on other 
applicants. That is what we would need to talk about, I think, 
in a classified setting. But it is one that is run on many 
refugees, but not all, and it does give us additional 
information about if there is derogatory information that would 
disallow their entry to the United States.
    Mr. Meehan. What do we know about an applicant when they 
make this? This is one of the things that I struggle with, is 
understanding where the, you know, the predicate knowledge 
about someone may come from.
    Now, I distinguish, again, when I go back from those who 
have worked with our Government in some particular capacity 
over a period of time and there is already a relationship, and 
I know the DOD will come in and talk about individuals, they 
will affirm that they had participated with this person.
    But I look towards others who come, quite appropriately, 
seeking refugee status. But how we do we determine that they 
actually have the beliefs or relationship with some particular 
group or others that qualifies them on the first place. What 
predicate level of information is pursued about someone? Do we 
have adequate resources to do it to the extent to which it is 
probably necessary?
    Mr. Bartlett. Sir, let me start and then refer to my DHS 
colleague.
    The process by which refugees are both identified and 
processed is, I think I said earlier, methodical and sometimes 
long.
    We don't really apologize, I think, for the length of the 
process because it does allow us to be, I think, more thorough. 
Again, we work very closely with partners on the ground. The 
United Nations is one, but certainly sometimes with local 
embassies, U.S. Embassies, sometimes with NGOs, to identify the 
refugees who are really in need of resettlement.
    Then we have nine contractors overseas that are located in 
regions throughout the world who are responsible, and are our 
contractors, who are responsible for collecting different 
information on each refugee family. So be it an individual or 
be it a family, information is collected. That is when really 
we begin, I think, a lot of the screening processes so that 
information----
    Mr. Meehan. How proactive is that, Mr. Bartlett? I mean, 
when I was appointed the United States Attorney, the FBI sent 
people back, they talked to my 8th-grade classmates, they 
talked to people that I went to high school with, neighbors 
that lived on my block when I was 10.
    Now, of course, that is for a secure position of 
responsibility here in the United States Government. I don't 
expect to have the same degree. I am just sort of curious the 
extent to which, so there is a sort of a vetting, so to speak, 
and there would be the kind of inquiry that would go back to 
try the understand who this person was in their previous 
community and what we know about them?
    Mr. Bartlett. If I could say one additional point, and then 
I think I will refer to my DHS colleague.
    I mean, at the beginning of this process there is a 
collection of information on each refugee or the refugee family 
in trying to develop both the individual information about that 
family, but also we look at family tree information, who are 
they related to, collection, obviously, of fingerprints at some 
point down the road. So at the individual level it is 
collected, and then that is when the process starts.
    At the next point in the process, Department of Homeland 
Security comes in and conducts additional interviews face-to-
face with a U.S. officer, usually located in Ms. Strack's 
office. But I think I will refer to Ms. Strack to talk a little 
more about how that vetting process then unfolds.
    Mr. Meehan. Ms. Strack, would you also, as you discuss that 
process, to the extent you can share it, identify how it is 
that that interview is designed to elicit the kind of 
information that would allow us to ask the next logical 
question about somebody's background?
    Ms. Strack. Yes, sir. The information that we have on 
refugee applicants does vary in certain regards. One is that 
there are basically three different ways that individuals can 
access the U.S. refugee resettlement program. Larry, I think, 
has talked about two of those three to this point. One is the 
U.N. Refugee Agency, the U.N. High Commissioner for Refugees 
can refer cases to us. In some cases, that may be an individual 
that the UNHCR knows has been in a camp for 20 or 30 years. 
They have very good registration records and they can reverify 
those records.
    So that individual has come forward, has shared a story of 
persecution, a story of flight. They have been in the camp, 
they have had a ration for 20 years, they have talked about who 
their children are, who their family members are. So there is 
quite a long record on who that person is before resettlement 
to the United States has ever even been talked about. So when 
we do the interview with that kind of a family, we will have 
that record in front of us and we can elicit testimony and see 
if the things that they are telling us are consistent with the 
records and the story that they have been telling to the U.N. 
Refugee Agency over a period of time, and that can give us 
greater confidence that the information that we are eliciting 
is true and accurate.
    In other cases, we may encounter, say, an Iraqi applicant 
who has fled much more recently. Iraqis tend to have a very 
great deal of documentation. So when we see an Iraqi refugee we 
often have a passport, we have a national ID, we may have a 
military booklet, in addition to possibly a record with UNHCR. 
They may tell us they worked for an American company, and if 
that is the case--or with the embassy--we have the ability to 
go back and to confirm their claimed employment history.
    So it really runs the gamut in terms of the tools that we 
have, depending on the----
    Mr. Meehan. May I interrupt to ask whether, in fact, in 
light of the engagement that we have with the governments of 
both Iraq and Afghanistan, do we have any access to the legacy 
records that that government now--that the Iraqi government or 
the Afghan government possess with respect to the, you know, 
the Iraqis and Afghans within their country? Do we have access 
to those databases?
    Ms. Strack. We do have access to some information, former 
Iraqi government information. I can't speak to Afghanistan. As 
Mr. Bartlett mentioned, we have just seen many fewer of those 
cases. I am not familiar with that off the top of my head. But 
we can in some instances access that information.
    Then we spend really a very great deal of time with our 
staff training them to be rigorous in terms of eliciting 
testimony.
    Another point that I would like to mention, for those who 
claim--who have previously been affiliated with the United 
States, we have found instances where that claim is true, they 
did have a previous affiliation with the U.S. Government or the 
U.S. military. We vet those individuals, nonetheless, just the 
way we would vet another applicant, because we have found in 
some instances that individuals may have been fired for cause 
or there may have been subsequent derogatory information that 
their former employer had no idea about.
    So even in a case where someone has documented prior 
employment directly or indirectly with the U.S. Government or a 
U.S.-affiliated entity, we still go through the full suite of 
security checks because we think that is important.
    Mr. Meehan. As we move forward in anticipation of the--
maybe I shouldn't say anticipation--the recognition of the 
continuing unrest in the countries like Syria and Jordan, if we 
anticipate that there may be more demands for the opportunity 
to be considered as refugees for either purpose, to come into 
our country, are we in possession of the capability right now, 
in light of the fact that we have got resources that are 
screening those in Iraq, we have got resources looking at 
Afghanistan, do you have the resources on the ground to be able 
to sufficiently identify and do the kinds of background work 
that need to be done, anticipating that you may get people from 
a broad variety of countries now who are seeking asylum under--
not asylum, but refugee status in this, you know, in light of 
the destabilization?
    Mr. Bartlett. Perhaps I could start just on the pure 
processing front. I think my colleagues at DHS can talk more 
about the security screening effort.
    But certainly in the Middle East we have very strong 
partners. We have a major partner that is located in Jordan. We 
have a major partner that is located in Istanbul, Turkey.
    So from those two, I think, main points, and with 
suboffices both in Baghdad and Egypt and Lebanon, we do 
actually have the capability to receive refugees and to take 
initial screening information and to move them through the 
processing system.
    I think on the security side I would defer to my DHS 
colleagues to talk about, kind-of, our ability to vet and be 
ready for that potential.
    Ms. Strack. As you know, every year the size of the refugee 
program is determined through a Presidential determination 
after consultations with Congress. So we know for this year the 
ceiling is 70,000. There will be an interagency conversation, 
then a conversation with the Congress about the size for next 
year.
    So we do feel at USCIS that we have the resources that we 
need to support a program of 70,000 admissions this year. Next 
year's ceiling will be set I think keeping the resources of all 
of the program partners into account.
    I can't speak directly to the capacity of the vetting 
agencies. That really is for them to say. But I can tell you 
that we know that a number of our vetting partners have 
increased their staffing over the last year, year-and-a-half or 
2, and in connection with this workload and being sure that 
they are staffed to be partners with us in this effort.
    Ms. Scalici. I could add, if you will, that to complement a 
little bit of what Ms. Strack said, this is a resource-
intensive effort that we have in place to do the enhanced 
security checks on all of the refugee applicants. We have 
worked across the interagency to include with the intelligence 
community. We believe we have the resources in place right now 
to support the refugee program as it is currently configured 
and at the current size that it currently exists. But I would 
have to defer to them if the program were to grow much larger 
over time.
    That said, though, I mean, we continue to learn and 
collaborate well with our interagency partners. We are working 
hard to try to find ways in which we can automate the processes 
to a greater extent than currently exist and to streamline 
those processes so that over time the amount of manpower 
specifically devoted to the effort could perhaps go down with 
any loss in the efficacy of the program itself.
    Mr. Meehan. I think it is important to note for the record, 
because we have been asking some probing questions and asking 
you to more or less present your confidence that something in 
the future might not happen by virtue of allowing the refugees 
here, but I think it is important to identify the 3 million or 
so, Mr. Bartlett, that you said have been resettled since the 
late '70s? Is that accurate? And of course the 58,000 since the 
Iraqi bulge, so to speak.
    So the fact that we have identified a small number who have 
actually come to the United States and been investigated and 
concluded to have participated in a potential terrorist 
activity is noteworthy, that it is quite small.
    But my closing question for you is, we on this committee 
have never ceased to be, I shouldn't say appreciative, I 
shouldn't say awed, but I would say cognizant of the extent to 
which al-Qaeda and others constantly probe and look for 
opportunities to exploit our system and to introduce acts of 
terror, not just against our interests in other parts of the 
country, but principally within the United States of America.
    To what extent can we feel comfort that al-Qaeda is not 
looking at this program as a back-door way to work with 
somebody to get them in here, into our country, to plant them 
for ultimate--you know, is this a way around the traditional 
way of getting into the United States of America, as one would 
with a visa or otherwise?
    Ms. Scalici. I would note and agree with you, sir, that 
certainly al-Qaeda and its affiliates have been very innovative 
over the years in terms of trying to identify potential what 
they consider to be vulnerabilities or gaps in our screening 
procedures to try to get individuals into the United States to 
do harm here.
    That is why we definitely have an intelligence-driven 
process. We review intelligence on a daily, 24-by-7 basis in 
conjunction with interagency partners to actively try to 
identify means by which al-Qaeda or its affiliates may try to 
penetrate our defenses and to identify individuals or groups of 
concern that really require increased screening and detention. 
So that is on-going.
    Certainly, we have comfort in terms of the increased 
security vetting that we have in place through the refugee 
program. But I will emphasize, it is not a static program. We 
will continue to learn lessons, we will continue to try to 
identify new sources of data and intelligence that would be 
relevant to these screening processes and to better secure our 
defenses and our program, such as the refugee program.
    Mr. Meehan. Do the other two panelists have any closing 
comments or observations you would like to share for us before 
we conclude the hearing?
    Ms. Strack. Mr. Chairman, I would just like to say, very 
briefly, when we launched large-scale processing of the Iraqi 
program in 2007, we recognized the compelling humanitarian 
need, but at the same time we recognized, in anticipation, that 
bad actors will try to take advantage of any immigration 
program to the United States, whether it is visa programs or 
refugee programs or student visitor programs.
    So we have really striven over the years to be in the 
forefront of cooperation and collaboration with the law 
enforcement and National intelligence communities. We know no 
program is impervious, but we have tried our best to be 
forward-leaning and in the forefront and ready to innovate and 
learn, as Ms. Scalici has said, from our experience in order to 
adopt the very best protocols that we can.
    Mr. Meehan. Thank you.
    Mr. Bartlett, any closing comment?
    Mr. Bartlett. Just a brief one, Mr. Chairman.
    I would just like to thank you for your interest, I think, 
in the security screening process that we have put in place and 
for the recognition that, in fact, improvements have been made. 
Also just like to say that the security screening process not 
only protects the United States, but also protects the program 
and really allows this country to provide on-going protection 
to refugees who are in need of this. So we thank you for your 
interest.
    Mr. Meehan. Well, let me conclude the hearing with the same 
observation I made at the outset, which is to thank you for the 
work that you do on a very, very challenging issue in which we 
balance the interests we have in continuing to be a Nation of 
refuge for those who we can include while at the same time 
appreciating the need to fulfill our first responsibility, 
which is to protect the citizens of the United States against 
future harm.
    So you are on the tip of the spear. I thank you for the 
diligent work that you are doing and the improvements that 
continue to be putting in to enhancing our ability to do so.
    So I just want to conclude the hearing by asking the 
panelists, if there should be further questioning from your 
panel here today or others who were unable to participate, that 
they may have written questions. We will keep the record open 
for 10 days in the event that there may be further questions, 
and I ask that you be responsive.
    I am very grateful, again, for your participation today. 
So, without objection, the committee stands adjourned.
    [Whereupon, at 11:26 a.m., the subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              

    Questions From Chairman Patrick Meehan for Lawrence F. Bartlett
    Question 1a. In May 2010, the FBI announced the arrest of Mohanad 
Hammadi and Waad Ramadan Alwan, two Iraqi nationals who were charged 
with participating in a plot to send cash, explosives, and Stinger 
missiles to al-Qaeda's affiliate in Iraq. The two made it through 
security screenings by both DHS and the Department of State and 
exploited special Iraqi refugee programs to come to the United States.
    Most disturbing perhaps is that Alwan was admitted into the United 
States in 2009 even though his fingerprints were found in 2005 on an 
unexploded roadside bomb that was set to blow up a U.S. convoy in Iraq.
    How is it that these two men were able to get through security 
background checks through the Iraqi refugee programs and what 
modifications in the security screening process have both DHS and the 
Department of State made since 2009 in order to make sure this never 
happens again?
    Question 1b. How confident are you all that this could not happen 
again? Please explain how the enhanced security screening processes now 
in place ensures that this will never happen again.
    Answer. Response was not received at the time of publication.
    Question 2. Are there legal authorities that this subcommittee or 
Congress could provide to assist your Department in putting into place 
an effective, efficient security check process for refugees from all 
threat countries?
    Answer. Response was not received at the time of publication.
    Question 3. If a special category of refugee were created in the 
future, similar to what was established for Iraqis, do you feel 
confident the measures established to screen the current Iraqi refugees 
would be enough to prevent an incident resembling the Alwan and Hammadi 
case?
    Answer. Response was not received at the time of publication.
    Question 4. How many names of Iraqi refugees have been provided to 
the FBI for further investigation?
    Answer. Response was not received at the time of publication.
    Question 5. Do you have concerns that refugees with terrorist ties 
from Iraq or other high-risk countries could be resettled in countries 
that participate in the Visa Waiver Program and then could enter the 
United States with a lower level of scrutiny?
    Answer. Response was not received at the time of publication.
    Question 6. How does the enhanced screening protocols used for 
refugees compare with the checks conducted through the Electronic 
System for Travel Authorization (ESTA) program under the Visa Waiver 
Program?
    Answer. Response was not received at the time of publication.
      Questions From Chairman Patrick Meehan for Barbara L. Strack
    Question 1a. In May 2010, the FBI announced the arrest of Mohanad 
Hammadi and Waad Ramadan Alwan, two Iraqi nationals who were charged 
with participating in a plot to send cash, explosives, and Stinger 
missiles to al-Qaeda's affiliate in Iraq. The two made it through 
security screenings by both DHS and the Department of State and 
exploited special Iraqi refugee programs to come to the United States.
    Most disturbing perhaps is that Alwan was admitted into the United 
States in 2009 even though his fingerprints were found in 2005 on an 
unexploded roadside bomb that was set to blow up a U.S. convoy in Iraq.
    How is it that these two men were able to get through security 
background checks through the Iraqi refugee programs and what 
modifications in the security screening process have both DHS and the 
Department of State made since 2009 in order to make sure this never 
happens again?
    Question 1b. How confident are you all that this could not happen 
again? Please explain how the enhanced security screening processes now 
in place ensures that this will never happen again.
    Answer. Response was not received at the time of publication.
    Question 2a. In testimony before the Senate Homeland Security and 
Government Affairs Committee last year, DHS Under Secretary Rand Beers 
said that the rescreening of Iraqi refugees would not be ``a one-time 
only screening process'' because new intelligence and information is 
constantly becoming available.
    We know that DHS is rescreening tens of thousands of Iraqi refugees 
who have been resettled in the United States for ties to terrorism. Can 
you update the committee as to the status of the rescreening process, 
how many refugees already in the country have been rescreened and how 
many remain?
    Question 2b. Please explain step-by-step the exact process DHS 
undertakes if a refugee admitted into the country has been found to 
have ties to al-Qaeda or other terrorist groups.
    Question 2c. Does any agency within DHS have access to Iraqi 
National Police and/or Iraqi Interior Ministry criminal records to 
assist in the adjudication process of Iraqi refugee and Special 
Immigrant Visa (SIV) applicants?
    Question 2d. How many USCIS officers are assigned to adjudicating 
and interviewing Iraqi refugee applicants at Refugee Support Centers 
abroad? How does the training USCIS officers receive compare to the 
training the Department of State provides to its Consular Officers? 
What security-related questions are included in the interview?
    Answer. Response was not received at the time of publication.
    Question 3a. The Refugee Crisis in Iraq Act of 2007 requires 
refugees undergo and pass a background check as determined by the 
Secretary of Homeland Security.
    What effect did the requirement for expediting Iraqi refugee 
resettlements have on DHS's ability to conduct thorough security 
screening of refugee applicants?
    Question 3b. What staffing resources were in place in 2007 to vet 
the thousands of Iraqis applying for resettlement in the United States?
    Answer. Response was not received at the time of publication.
    Question 4. How many Iraqi refugee applicants have been flagged by 
USCIS in the adjudication process and refused resettlement status by 
the U.S. Government?
    Answer. Response was not received at the time of publication.
    Question 5. How many Iraqi Special Immigrant Visa (SIV) applicants 
have been identified by USCIS in the adjudication process and refused 
resettlement status by the U.S. Government?
    Answer. Response was not received at the time of publication.
    Question 6. Ms. Strack, can you explain the criteria for 
determining who should receive a Security Advisory Opinion and can you 
explain this process from beginning to end?
    Answer. The Foreign Affairs Manual contains State Department 
administrative organization policies and procedures and is written 
based on requirements contained in the Foreign Service Act. Security 
Advisory Opinions (SAOs) for refugees are called Merlins, and the 
requirements for requesting a Merlin SAO are found in 9 FAM Appendix G. 
In general, SAOs must be requested for refugee applicants 16 years of 
age or older, who can be described in one of the categories listed 
below:
    (1) An applicant with a non-excludable security-related hit in the 
        Department of State's Consular Lookout and Support System 
        (CLASS) database;
    (2) Nationals, or specified categories of nationals, of designated 
        countries which are not recognized by the United States, with 
        which the United States has no diplomatic relations, or on 
        which the Department has imposed an SAO requirement for 
        political, security, or foreign policy reasons.
    (3) Third-country nationals working for the government of Iraq or 
        government of Libya.
    (4) An applicant on whom the adjudicating officer has any reason to 
        believe an SAO should be performed prior to final adjudication, 
        including any applicant who may be inadmissible under I&A 
        terrorism-related grounds.
    Refugee applicants are subject to additional SAO requirements 
regardless of the CLASS name-check response. These requirements are 
classified.
    The Bureau of Population, Refugees, and Migration (PRM)'s overseas 
Resettlement Support Centers request SAOs through PRM's Worldwide 
Refugee Admissions Processing System which is managed by the Refugee 
Processing Center (RPC), located in Rosslyn. The Center's staff runs a 
CLASS check and creates the SAO. Our interagency partners respond via a 
Consular Affairs application known as Visa Opinion Information Service 
(VOIS), which is used by the Department of State's Bureau of Consular 
Affairs for all other types of SAOs. PRM and RPC staffs vet the 
responses to finalize the SAO decision.
    Question 7. Is there a uniform process for receiving Security 
Advisory Opinion of refugees from countries which may be of heightening 
security concern before undergoing an interview with USCIS?
    Answer. Response was not received at the time of publication.
    Question 8. Are you satisfied with the support DHS has received 
from all applicable partners in the U.S. intelligence community (USIC) 
on the refugee security check regime? Are you aware of any data sources 
that DHS does not currently have access to, but could be helpful to the 
security check process?
    Answer. Response was not received at the time of publication.
    Question 9. Are there legal authorities that this subcommittee or 
Congress could provide to assist your Department in putting into place 
an effective, efficient security check process for refugees from all 
threat countries?
    Answer. Response was not received at the time of publication.
    Question 10. If a special category of refugee were created in the 
future, similar to what was established for Iraqis, do you feel 
confident the measures established to screen the current Iraqi refugees 
would be enough to prevent an incident resembling the Alwan and Hammadi 
case?
    Answer. Response was not received at the time of publication.
    Question 11. How many names of Iraqi refugees have been provided to 
the FBI for further investigation?
    Answer. Response was not received at the time of publication.
    Question 12. How long will DHS maintain data on refugees obtained 
as part of the application and security screening process? Does DHS 
also retain data on applicants who are rejected for resettlement?
    Answer. Response was not received at the time of publication.
    Question 13. Do you have concerns that refugees with terrorist ties 
from Iraq or other high-risk countries could be resettled in countries 
that participate in the Visa Waiver Program and then could enter the 
United States with a lower level of scrutiny?
    Answer. Response was not received at the time of publication.
    Question 14. How does the enhanced screening protocols used for 
refugees compare with the checks conducted through the Electronic 
System for Travel Authorization (ESTA) program under the Visa Waiver 
Program?
    Answer. Response was not received at the time of publication.
        Questions From Chairman Patrick Meehan for Dawn Scalici
    Question 1a. In May 2010, the FBI announced the arrest of Mohanad 
Hammadi and Waad Ramadan Alwan, two Iraqi nationals who were charged 
with participating in a plot to send cash, explosives, and Stinger 
missiles to al-Qaeda's affiliate in Iraq. The two made it through 
security screenings by both DHS and the Department of State and 
exploited special Iraqi refugee programs to come to the United States.
    Most disturbing perhaps is that Alwan was admitted into the United 
States in 2009 even though his fingerprints were found in 2005 on an 
unexploded roadside bomb that was set to blow up a U.S. convoy in Iraq.
    How is it that these two men were able to get through security 
background checks through the Iraqi refugee programs and what 
modifications in the security screening process have both DHS and the 
Department of State made since 2009 in order to make sure this never 
happens again?
    Question 1b. How confident are you all that this could not happen 
again? Please explain how the enhanced security screening processes now 
in place ensures that this will never happen again.
    Answer. Response was not received at the time of publication.
    Question 2a. In testimony before the Senate Homeland Security and 
Government Affairs Committee last year, DHS Under Secretary Rand Beers 
said that the rescreening of Iraqi refugees would not be ``a one-time 
only screening process'' because new intelligence and information is 
constantly becoming available.
    We know that DHS is rescreening tens of thousands of Iraqi refugees 
who have been resettled in the United States for ties to terrorism. Can 
you update the committee as to the status of the rescreening process, 
how many refugees already in the country have been rescreened and how 
many remain?
    Question 2b. Please explain step-by-step the exact process DHS 
undertakes if a refugee admitted into the country has been found to 
have ties to al-Qaeda or other terrorist groups.
    Question 2c. Does any agency within DHS have access to Iraqi 
National Police and/or Iraqi Interior Ministry criminal records to 
assist in the adjudication process of Iraqi refugee and Special 
Immigrant Visa (SIV) applicants?
    Answer. Response was not received at the time of publication.
    Question 3a. The Refugee Crisis in Iraq Act of 2007 requires 
refugees undergo and pass a background check as determined by the 
Secretary of Homeland Security.
    What effect did the requirement for expediting Iraqi refugee 
resettlements have on DHS's ability to conduct thorough security 
screening of refugee applicants?
    Question 3b. What staffing resources were in place in 2007 to vet 
the thousands of Iraqis applying for resettlement in the United States?
    Answer. Response was not received at the time of publication.
    Question 4. Are you satisfied with the support DHS has received 
from all applicable partners in the U.S. intelligence community (USIC) 
on the refugee security check regime? Are you aware of any data sources 
that DHS does not currently have access to, but could be helpful to the 
security check process?
    Answer. Response was not received at the time of publication.
    Question 5. Are there legal authorities that this subcommittee or 
Congress could provide to assist your Department in putting into place 
an effective, efficient security check process for refugees from all 
threat countries?
    Answer. Response was not received at the time of publication.
    Question 6. If a special category of refugee were created in the 
future, similar to what was established for Iraqis, do you feel 
confident the measures established to screen the current Iraqi refugees 
would be enough to prevent an incident resembling the Alwan and Hammadi 
case?
    Answer. Response was not received at the time of publication.
    Question 7. How many names of Iraqi refugees have been provided to 
the FBI for further investigation?
    Answer. Response was not received at the time of publication.
    Question 8. How long will DHS maintain data on refugees obtained as 
part of the application and security screening process? Does DHS also 
retain data on applicants who are rejected for resettlement?
    Answer. Response was not received at the time of publication.
    Question 9. Do you have concerns that refugees with terrorist ties 
from Iraq or other high-risk countries could be resettled in countries 
that participate in the Visa Waiver Program and then could enter the 
United States with a lower level of scrutiny?
    Answer. Response was not received at the time of publication.
    Question 10. How does the enhanced screening protocols used for 
refugees compare with the checks conducted through the Electronic 
System for Travel Authorization (ESTA) program under the Visa Waiver 
Program?
    Answer. Response was not received at the time of publication.

                                 <all>

</pre></body></html>
